<html>
<title> - RHODE ISLAND HOMELAND SECURITY PRIORITIES: PREPARATION FOR THE 2006 HURRICANE SEASON</title>
<body><pre>[Senate Hearing 109-932]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-932
 
  RHODE ISLAND HOMELAND SECURITY PRIORITIES: PREPARATION FOR THE 2006 
                            HURRICANE SEASON
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

               FIELD HEARING IN PROVIDENCE, RHODE ISLAND

                               __________

                             APRIL 20, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                      U.S. GOVERNMENT PRINTING OFFICE
28-239 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                       Jonathan T. Nass, Counsel
               Larry F. Vigil, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
          Donny R. Williams, Minority Professional Staf Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Chafee...............................................     3

                               WITNESSES
                        Thursday, April 20, 2006

Hon. Donald L. Carcieri, Governor, State of Rhode Island.........     4
Hon. David N. Cicilline, Mayor, City of Providence, Rhode Island.    12
Robert J. Warren, Executive Director, Rhode Island Emergency 
  Management Agency..............................................    14
Kenneth L. Horak, Acting Regional Director, Region 1, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................    16
Major General Robert Thomas Bray, Adjutant General, Rhode Island 
  National Guard.................................................    19
John E. Chartier, Fire Chief and Emergency Management Director, 
  City of Warwick, Rhode Island..................................    21

                     Alphabetical List of Witnesses

Bray, Major General Robert Thomas:
    Testimony....................................................    19
    Prepared statement with attachments..........................    53
Carcieri, Hon. Donald L.:
    Testimony....................................................     4
    Prepared statement...........................................    31
Chartier, John E.:
    Testimony....................................................    21
    Prepared statement...........................................    63
Cicilline, Hon. David N.:
    Testimony....................................................    12
    Prepared statement...........................................    38
Horak, Kenneth L.:
    Testimony....................................................    16
    Prepared statement...........................................    44
Warren, Robert J.:
    Testimony....................................................    14
    Prepared statement...........................................    40

                                APPENDIX

Photos of Hurricane Carol submitted by Senator Chafee............    68
Evacuation maps referenced by Donald Carcieri....................    69


                     RHODE ISLAND HOMELAND SECURITY



                    PRIORITIES: PREPARATION FOR THE



                         2006 HURRICANE SEASON

                              ----------                              


                        THURSDAY, APRIL 20, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                           Providence, Rhode Island
    The Committee met, pursuant to notice, at 10:30 a.m., at 
the Rhode Island Foundation, the Rhode Island Room, 40 Exchange 
Street, Providence, Rhode Island, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins and Chafee.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning. Today, the Committee on Homeland Security and 
Governmental Affairs will conduct a hearing on the homeland 
security priorities of the State of Rhode Island with special 
emphasis on preparedness for the upcoming 2006 hurricane 
season.
    Let me begin this morning by thanking my friend and 
colleague, Senator Lincoln Chafee, for his leadership in 
developing this important hearing, for inviting me to come here 
today, and for his many important contributions to the 
Committee's work in so many different areas.
    Rhode Island faces considerable homeland security 
challenges. In addition to being a major transportation hub 
with an increasingly busy international cargo port and being a 
center of industry, research, education, and recreation, Rhode 
Island has the second highest population density in the Nation. 
A disaster here, whether natural or manmade, could have 
especially dire consequences. By examining in detail the 
homeland security challenges of one State, we hope to gain a 
better understanding of the challenges faced by other States.
    Rhode Island is a microcosm of the homeland security issues 
that must be addressed, particularly in other coastal States. 
The Governor was making the point to me that Rhode Island, 
while small, has more than 400 miles of coast land. Senator 
Chafee made the point to me that even though Rhode Island is 
very small geographically, it has a very concentrated 
population. That means there are special challenges in dealing 
with the homeland security implications. Rhode Island is 
particularly vulnerable to hurricanes. Of its 39 
municipalities, 21 have coastal shorelines and two-thirds of 
the State's population lives in those 21 communities. Because 
of its small size, the entire State is considered to be 
coastal. Therefore, our focus on hurricane preparation is 
especially important this morning and timely, considering that 
hurricane season starts on June 1.
    Our Committee, as many of you may know, has been conducting 
and is about to conclude our investigation into the 
preparedness for and response to Hurricane Katrina. This is the 
most extensive investigation the Committee has ever conducted. 
It has spanned nearly 8 months with 21 hearings to date and 
testimony from more than 80 witnesses. In addition, Committee 
staff have conducted more than 300 formal interviews and 
examined some 820,000 pages of documents. Our final report will 
be released soon, probably within the next 2 weeks. It will 
include our findings on a deeply flawed response that resulted 
in needless suffering and loss of life. It will also shine a 
spotlight on the failure of the partnership of emergency 
management agencies across all levels of government. It will 
include our recommendations on how best to rebuild and 
strengthen this partnership so that the failures of Katrina are 
never repeated. The fact that the 2006 hurricane season is 
barely a month away adds special urgency to our work.
    This region is by no means immune from hurricanes. 
Hurricane Bob in 1991 was small in size but highly concentrated 
in power. It struck Block Island and then the Rhode Island 
coast at high tide, causing heavy damage in Newport. It is an 
example seen time and time again during Katrina of how a storm 
can impede disaster response. Winds in excess of 100 miles per 
hour caused severe damage to police and fire stations in 
Bristol, Barrington, and Narragansett. As with Katrina, 
Hurricane Bob arrived with ample warning, but public officials 
had a difficult time convincing residents to evacuate. 
Hurricane Bob cost an estimated $900 million in property 
damage, caused 17 deaths, and left more than 2 million people 
without power.
    Hurricane Carol in 1954 was the second most destructive 
hurricane to hit the Northeast in the 20st Century, and Rhode 
Island bore its brunt. From Westerly to Newport, more than 
5,000 buildings were destroyed and 66 lives were lost. At the 
time, Carol was the most expensive hurricane ever to hit the 
United States.
    And, of course, the most powerful storm ever to hit the 
Northeast was the legendary hurricane of 1938. The so-called 
Long Island Express slammed into Narragansett Bay with wind 
gusts exceeding 180 miles per hour. It produced some of the 
most extensive and damaging river flooding ever seen and caused 
more than 600 deaths. I stayed at the Biltmore Hotel last night 
and saw in the lobby the pictures and also the plaque showing 
how high the water rose. I don't know whether that was part of 
the plan to make sure that I really understood what hurricanes 
could do to your State, Senator Chafee, but it was very 
effective indeed.
    Clearly, New England is by no means immune from hurricanes 
and the scientists tell us that more devastating hurricanes are 
likely to be on the way this season. The 2005 hurricane season 
was brutal with a record-setting 27 storms, including 15 
hurricanes. This year could even be worse. Forecasters say that 
the Atlantic is in a period of increased hurricane activity 
that could last another decade or longer. And water 
temperatures are high, and that is not a good sign. We must 
learn the lessons of Katrina, and we must assist States like 
Rhode Island in meeting the challenges.
    Our witnesses today are here to help us do just that. I 
thank you all for coming and for your participation, and I'm 
sure your insights, knowledge, and experience will help better 
prepare Rhode Island for whatever disasters come your way and 
help our entire Nation, as well.
    It's now my great pleasure to call on Rhode Island's own 
Senator, Senator Lincoln Chafee, for his opening statement. 
Senator Chafee.

              OPENING STATEMENT OF SENATOR CHAFEE

    Senator Chafee. Thank you very much, Senator Collins, and 
welcome to Rhode Island for this important hearing of the 
Senate Homeland Security and Governmental Affairs Committee, of 
which you are Chairman.
    Hurricane Katrina, as you said, showed us all in a very 
vivid fashion that protecting our Nation comes in many 
different forms. Over the past 6 months, Senator Collins has 
led our Committee through an extensive series of hearings on 
the Federal, State, and local response to Hurricane Katrina. We 
have found numerous serious problems in coordination between 
key government agencies. We're working to correct these 
problems to ensure they do not happen again.
    As Senator Collins said, Rhode Island is no stranger to 
hurricanes. Of course, in 1938 we had a Category 3 with winds, 
as Senator Collins said, of 180 miles an hour and a 16-foot 
tidal surge, which flooded Providence with 14 feet of water, 
and also we lost 200 lives here in Rhode Island.
    In 1954, Hurricane Carol hit with a 13-foot storm surge 
that affected many area islands, tidal coastal communities. 
Downtown Providence, again, water reached 13 feet above normal. 
And, as Senator Collins said, we lost 66 lives here in Rhode 
Island in Hurricane Carol.
    And more recently, we've also had Hurricane Gloria in 1985 
and Hurricane Bob in 1991.
    Today we are very fortunate to have key Federal and State 
officials with us to discuss our preparations for the 2006 
hurricane season here in Rhode Island. We are pleased to have 
Governor Carcieri here to discuss our State's preparations and 
discuss what resources have been dedicated to hurricane 
preparation and what additional resources may be necessary. We 
are also fortunate to have Mayor Cicilline with us to discuss 
disaster preparation in the capital city. Also, we have Ken 
Horak who leads FEMA's work in Region 1 to discuss the Federal 
role in disaster preparation. And on the second panel, we will 
hear from gentlemen who are ensuring that Rhode Island is 
prepared for all potential disasters; the Executive Director of 
Rhode Island's Emergency Management Agency, Robert Warren, and 
the Adjutant General of the Rhode Island National Guard, Major 
General Robert Bray. And finally, as the former Mayor of the 
City of Warwick, we are pleased to have John Chartier here to 
discuss hurricane preparations from his perspective as head of 
Emergency Management for the City of Warwick. I know that Jack 
has just returned from the National Hurricane Conference, and 
we are eager to learn what he learned there.
    Thank you, Chairman Collins, for coming to Rhode Island to 
allow us to discuss this important issue to assure we are fully 
prepared for the 2006 season. I look forward to hearing 
everybody's testimony.
    Chairman Collins. Thank you, Senator. I can think of no 
better person to lead off this hearing today than the Governor 
of Rhode Island. Senator Chafee is always reminding us in the 
Senate that Rhode Island has as its formal name the longest of 
any State. And I'm trying to remember whether it's the State of 
Rhode Island and Providence Plantations? Pretty good. And it's 
a great pleasure to have the Governor as our lead witness 
today.
    Governor, we welcome you and please proceed.

TESTIMONY OF THE HON. DONALD L. CARCIERI,\1\ GOVERNOR, STATE OF 
                          RHODE ISLAND

    Governor Carcieri. Thank you very much, Senator Collins, 
and welcome to the Ocean State. It is the Ocean State as you 
will keep hearing today. And thank you, Senator Chafee, for 
being here. The Senator and I had the pleasure on Tuesday of 
blowing up a bridge, and that will be memorable.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Carcieri appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    I am pleased to have the opportunity to testify before you 
today. In the wake of Hurricane Katrina, we all know how 
important it is for our State and all States to be fully 
prepared, not if, but when a hurricane strikes our State. Since 
1851, Rhode Island has experienced nine direct hits. We've 
learned firsthand what can happen to our capital city when a 
hurricane strikes.
    As you indicated, during the hurricane of 1938, the storm 
hit Rhode Island at high tide, flooding the Providence business 
district. Residents drowned, cars were submerged in seven feet 
of water, and buildings were damaged by the fury of the storm.
    Sixteen years later, our capital city was flooded once 
again by the tidal waves from Hurricane Carol. Just like the 
hurricane of 1938, Carol arrived near high tide. I did not 
experience 1938, but I was 12 years old in 1954, and I remember 
it extraordinarily well. We lived near the water. My dad had a 
couple of boats. He shellfished summers. So I lived through and 
saw the devastation of Hurricane Carol. We went through it and 
saw it personally in the aftermath of that. So for me, this is 
a personal experience that I don't want to see duplicated. 
Southern Rhode Island, as you pointed out, had wind gusts of 
115 to 135 miles per hour, and T.F. Green Airport sustained 90 
miles per hour winds. Hurricane Carol took a great toll on 
southern Rhode Island. From Westerly to Newport, some 5,000 
buildings were destroyed. In Westerly, it's estimated there 
were tides up to 13 feet above mean high water, and 600,000 
Rhode Islanders lost power. The storm affected our capital city 
with water rising within a foot of the record line that you saw 
on the plaque commemorating the 1938 hurricane. So Hurricane 
Carol was a tough one, a stronger one, and had a huge impact on 
our State.
    Particularly after the hurricanes in Florida 2 years ago, 
as I took office here, I directed the Rhode Island Emergency 
Management Agency to begin updating Rhode Island's hurricane 
plans. The lessons that we've learned through Hurricane Katrina 
have reinvigorated that process. Under the leadership of our 
new EMA Director, Bob Warren, and our new Adjutant General, 
General Bob Bray, we have been working hard and making major 
progress to make our plan the strongest and most effective in 
the Nation. In fact, the team from the U.S. Department of 
Homeland Security recently visited our State and praised those 
efforts. As I say, we are making major progress.
    We are currently working with a consultant and have been 
for a few months now to assist us in developing a comprehensive 
hurricane evacuation plan. As was clear from Katrina and its 
impacts, it was an issue of evacuation, getting residents out 
of harm's way that would be affected by the storm surge. We 
paid a lot of attention to that. I allocated almost $20,000 out 
of my own contingency for purposes to make this plan and get it 
completed by June 1. It will give us a blueprint. I think you 
are going to see in subsequent testimony, we have got it up on 
the web site, and you will be quite impressed to see the actual 
evacuation plan and all the overlays in terms of Category 3 and 
4 floodplains that we have outlined across the State. It will, 
as I said, give us a blueprint to follow, highlight the steps 
we need to take before, during, and after a hurricane. And our 
plan will address issues such as evacuation and resource 
management while the storm is still along the southeast coast 
line.
    As part of our efforts to better prepare for a hurricane, I 
have asked all municipalities for a report documenting that 
local emergency plans are as comprehensive as possible, 
especially for people with disabilities. Last fall, I attended 
a hurricane preparedness meeting with Bob Warren and our 
State's Emergency Management Agency officials and local 
municipalities to ensure that all cities and towns have 
effective evacuation routes, as well as hurricane preparedness 
plans. We have already identified escape routes for the 21 
coastal communities that might be inundated by flooding during 
a storm and have posted that information on the EMA web site.
    We have also worked with the Red Cross to solve the 
shortage in evacuation shelters. In fact, we have about 15 now 
of a targeted 30 that we believe we will need to have 
available. All of the data in terms of percentages of people in 
the affected area who will require shelter, we are following 
that, and we're working very closely with the Red Cross. They 
actually have primary responsibility for identifying those 
shelters, and that is ongoing.
    To make sure that our hurricane plan will ensure public 
safety to the utmost degree, the EMA has been developing a 
donations management plan, and we're working on partnering with 
the Salvation Army, the Red Cross, as I mentioned, and the 
Rhode Island Community Food Bank to receive those items.
    The Rhode Island EMA has been working with the Department 
of Environmental Management to address the State's debris 
management plan. If a Category 3 hurricane would hit our State, 
it could generate as much waste as the State would normally 
produce in 3 years. We must have the capability to clear 
critical infrastructure and dispose of debris. Additionally, 
EMA has worked with FEMA to create a plan to distribute food, 
water, and ice to our citizens.
    Since I took office, I have made it a priority to enhance 
Rhode Island's preparedness for hurricanes and emergencies of 
any kind. I have allocated $50,000 each year since I have been 
in office for ongoing support of the hurricane barrier. Our 
hurricane barrier, which was constructed after Hurricane Carol 
and after the capital city flooded twice, was tested in July 
before the Army Corps of Engineers, they oversee that, and it 
passed inspection.
    Since fiscal year 2003, Rhode Island has received $41.5 
million in homeland security grants. That is enabling us to 
move forward with a host of projects, including urban search 
and rescue, hazard teams, and casualty trailers to name just a 
few.
    Currently, our State has requested nearly $60 million in 
homeland security grants. As you know, we are only guaranteed 
$7 million. We are very concerned about the new process. In 
order to continue the progress we are making in better 
preparing our State for a hurricane or a disaster, we must 
receive the funding that we need to protect the people of Rhode 
Island. As you pointed out, Senator Collins, we are a highly 
concentrated, densely populated State. We may be small in 
population, but we are all living closely together. I urge you 
to address this pressing issue so that we can build upon the 
momentum we have gained.
    For example, we are making progress in facilitating 
communication among first responders. A major issue that has 
been identified around the country we saw in the case of our 
Station nightclub fire that Senator Chafee is well aware of. 
The ability of first responders to communicate with one another 
was significantly hampered.
    We have enhanced the interoperability in Washington County, 
which is one of our southern communities' counties, and work is 
underway to bring this standardized communications system for 
first responders in Newport, North Providence, Providence, and 
South County. However, in order to complete this statewide 
system, our EMA is seeking $32 million in homeland security 
grants.
    We also have Nextel radio systems in our hospitals and in 
every community in our State to enable first responders to 
communicate with emergency rooms. That got highlighted in the 
most recent review by homeland security personnel in terms of 
really being state-of-the-art, and we're well ahead of the 
curve there.
    Last year, we dedicated a high tech $1.4 million mobile 
Command Center, which will enable us to set up a post anywhere 
in our State and allow Federal, State, and local agencies to 
communicate effectively during an emergency.
    Two years ago, Burrillville, one of our northern smaller 
communities, and several surrounding communities pooled their 
resources from homeland security grants to also purchase a 
mobile command post. And due to the generosity of a local 
resident, the City of Newport has a mobile command post.
    Additionally, Rhode Island E911 has implemented a pilot 
program that utilizes state-of-the-art technology which ables 
dispatchers to view a location from many different angles. This 
gives first responders all of the pertinent information before 
they get to a scene.
    To have more cohesive emergency operations, I have 
recommended a $20 million bond to locate the Emergency 
Operations Center, E911, IT, and EMA at a single complex within 
the Pastore complex. The General Assembly has heard testimony 
on this issue and is considering the request. We also will be 
seeking $6 million from the Federal Government to make this a 
state-of-the-art facility.
    I should say that, and I know you sponsored legislation 
that I am very supportive of, one of the things FEMA needs to 
look at is the ability of States to be proactive, particularly 
in terms of hurricane preparedness, and one of the issues I see 
is sort of what we call State active duty. In other words, 
getting our people in the emergency operations centers up and 
running well ahead, days ahead of the actual projected 
landfall. Right now, I think it is a reticence because it is 
State money; if it never comes, then it is an expenditure out 
of the State funds. From a Federal perspective, if our goal is 
to make all the shoreline communities more prepared, I think 
that would be an excellent thing if we could somehow, I know 
that requires a modification of the Stafford Act or whatever, 
build funding from the Federal standpoint to stand those 
emergency operation centers up in anticipation of and ahead of 
the projected landfall.
    And it looks like I'm out of time.
    Chairman Collins. Take as much time as you need, Governor.
    Governor Carcieri. Well, just a couple of last thoughts 
here.
    Last week, my staff and I met with Senator Chafee, I think 
I mentioned it to you, Senator Collins, to discuss emergency 
response plans for the Port of Providence in the event a series 
of catastrophic events occurred. There is a group that does 
modeling and simulations in terms of cascading events in ports. 
And when we saw what happened with Hurricane Katrina, and what 
followed, by the flood, we need some money. We are seeking $1 
million that will enable us to be better prepared for the type 
of chain reaction that we may experience in the port here. If 
we had an event, at the LNG tank, for example, that then 
cascaded into subsequent events at other places, we are also 
the home for the distribution of petroleum to the northeast. So 
it wouldn't just be a Rhode Island impact. In fact, it would be 
a knock-out impact in the region if we were to have cascading 
events here at the port.
    One final point I would make is over the last 2 years, as 
far as I am concerned, we have made major progress. Our plan 
was substantially inadequate 2 years ago. We have made major 
progress. My goal is by June 1 at the beginning of the 
hurricane season to have that plan completed, all elements in 
place have been exercised, and I am confident that we are going 
to get to that point.
    From the standpoint of working with FEMA, working with the 
Federal Government, working with the communities, the advantage 
we have as a small State is we can get together, and I think 
there's a very cohesive attitude about attacking this problem, 
and I am very confident that we are in good shape. We will be 
in much better shape by June 1. And you will hear from the 
General and Bob Warren a lot of details, but I think there are 
some things at the Federal level that you could do and that you 
have indicated in your legislation that I would be, as I said, 
very supportive of.
    The notion that it is all based on population I just don't 
think applies in our State. Coastline communities often are not 
highly populated in that sense, but if we are talking about 
hurricanes, we need assistance, particularly in the area of 
being proactive. Because when I look at our response system, 
very often it is reactive, after the event, now you have 
mobilized all of the resources, and I think that may be true of 
a terrorist attack or something like that. But in hurricane 
preparedness, I think being proactive could be a key in terms 
of making sure that everybody is better prepared and ready to 
go.
    So I will stop there because I know you have a bunch of 
questions. Thank you very much for the opportunity to appear 
before the two of you. And thank you again, Senator Collins, 
for coming.
    Chairman Collins. Thank you very much, Governor. Your 
testimony was excellent, and I want to congratulate you on 
focusing on so many of the issues that our investigation into 
Hurricane Katrina has taught us are the key issues and make 
literally the difference between life and death in a disaster.
    I was particularly interested to learn of the work you are 
doing on evacuations, and you have kindly provided us with the 
maps showing the routes and the plans that you have because 
that is really critical. What we learned in looking at 
Louisiana in particular is, although there were some evacuation 
plans, there was a delay in implementing them and in calling 
for a mandatory evacuation, but also there was a lack of 
familiarity with the plans. So I think the work that you are 
doing in advance of the involvement of the communities is 
completely the right way to go, and I commend you for that.
    One part that we found was a weakness with Louisiana's 
plans is that their evacuation plans did not include a means to 
evacuate those who could not evacuate themselves, those without 
the means of transportation, those with special needs, those in 
nursing homes or hospitals. Is that an area that you are 
working on; and if so, if you could comment on that?
    Governor Carcieri. Yes. I think you are absolutely correct, 
Senator. I think all of us were a little appalled when we saw 
the people in nursing homes that were unable to evacuate 
themselves were left behind and not properly considered and 
they did not seem to have the mechanism to move them out. I 
think we all learned from that. As part of our plan, we are 
doing it. We have done an assessment, and we are waiting now 
for the completion to come up with all of the cities' and 
towns' residents that they are aware of, nursing homes, day 
care facilities, those kind of things where we know that those 
facilities exist; how many of them are there, where are they, 
and does the municipality have a plan for taking care of those 
and evacuating those personnel.
    And that's a key element of all of this because, as you 
pointed out, as I indicated to you, we are a small State with 
400 miles of coastline, and there are, in fact, homes and 
facilities with people that would need assistance in that 
floodplain area. So that is clearly a piece of the whole plan 
that will be well identified. And, hopefully, if any 
municipality is going to need any assistance with those 
evacuations, we are prepared to provide that assistance, as 
well. So it will vary from town to town, some might have one 
facility with a few people, but we have also tried to ask them 
to go out a little further because often you have seniors that 
are in a home and are not prepared to evacuate themselves. In 
some cases, you rely on a community's knowledge of their 
neighborhoods and so forth.
    So we are trying to reach out and get as much of that 
information as we can and make sure that, God forbid if we get 
hit, we know who we have to go in and help move out.
    Chairman Collins. The second issue that you mentioned that 
we found was a critical deficiency in the response to Hurricane 
Katrina was the inability of first responders to communicate 
with one another. We learned in the attacks on our country on 
September 11 that lives were lost because police officers could 
not communicate with firefighters and firefighters could not 
communicate with emergency medical personnel. The same thing 
happened in Hurricane Katrina. And, in fact, our investigation 
revealed that just within the New Orleans area, there were 
multiple systems that were incompatible, and this, as you know, 
is referred to as the interoperability issue.
    It sounds like you have made that a real priority but need 
some Federal funding to assist you in reaching the goal. Could 
you give the Committee a sense of how far along you are as a 
State in achieving the interoperability and how much, I think 
you said it was $32 million, that you have applied for.
    Governor Carcieri. Yes.
    Chairman Collins. Whether you could continue to make the 
progress that you need to complete this or is Federal funding 
really essential?
    Governor Carcieri. I would say Federal funding is essential 
because it is the acquisition of the equipment that we need to 
do that as you pointed out.
    I indicated one of our counties, Washington County, which 
is in the southern part of the State, a lot of coastline, we 
did a couple of years ago receive funding to make all those 
communities interoperable. We have a plan to bring it 
statewide. That is the $32 million that I referred to. I think 
it would be very difficult for us to do that without Federal 
assistance.
    The other thing, I think a key piece of that in terms is 
the mobile command unit I talked about. That is a very 
effective tool where you've got situations where you don't have 
interoperability, where you've got different frequencies. We 
saw that, I saw that. We had a bad fire in Pawtucket, one of 
our own cities up here, and Massachusetts used theirs, and it 
was very effective, and they had people talking to one another. 
Now, that was all electronics. We have some of that capability, 
as I indicated, but I think to do this effectively, we need 
that Federal assistance.
    And I agree with you completely, everything--my own 
personal experience, when we had that Station nightclub fire, 
was very consolidated, concise in that one building, which we 
had responders coming from multiple cities and towns nearby. We 
had rescue personnel, we had ambulances, and we had people 
using personal cell phones trying to communicate, and that is a 
theme I have heard in talking with fellow governors. The whole 
notion of responders being able to communicate on the same 
frequency is critical, I think, to the response.
    So I would say that without Federal assistance there, I 
think it is going to be very difficult for a State like ours.
    Chairman Collins. Thank you. Senator Chafee.
    Senator Chafee. Thank you, again, Senator Collins. And, 
Governor, welcome, of course.
    Senator Collins, when the Governor was running for office 
in 2002, he had a primary and then an election. So he was going 
7 days a week pretty much all summer, all fall. Then when he 
got elected, he had to put together a government and hire his 
people. So he finally got a vacation in February. As soon as he 
got to Florida, he got a call that there was a most tragic fire 
back here in Rhode Island. So he got the first plane back and 
dealt with, as we just discussed a little bit here, the tragedy 
that was unfolding.
    And, Governor, you talked a little bit what you have 
learned from that, but maybe just expand a little bit on, 
interoperability is certainly one issue, but how the first 
responders, what we learned from the Station fire and what 
improvements still need to be made. I know we had a very good 
response at that tragedy, but there's always room for 
improvement. Where in particular can we focus?
    Governor Carcieri. I think that you are right, Senator. We 
learned from those things. And one of the lessons early on was 
the whole communications, the responders being unable to 
coordinate. For instance, you had people still coming to the 
scene when the fire essentially was out. And we did not need 
fire support. What we needed was rescue support. We had 
communication problems, I think, with the hospitals because, as 
you recall, all of the--initially, many of the rescues were 
going to Kent County Hospital, one of our smaller regional 
hospitals, Senator Collins, and they had stood up all of that 
capacity; and the communication as to the flow, once all of the 
response was done and we had everybody accounted for, there was 
a real breakdown in communication in terms of letting them 
stand down now. We had accounted for everybody coming from the 
scene. So the whole communication, whether it is the first 
responders, the responders for the hospitals that are treating, 
is key.
    Let me also say that from my perspective, my experience 
with the Federal response was outstanding in that we needed the 
DMORT team that came in here, Senator, and they were here in 
less than 24 hours with their mobile unit.
    The whole team was here. We could not have done the job in 
the Medical Examiner's Office in terms of identifying those 
victims of that terrible tragedy and returning them to their 
families and the time frame in which we did it, which was 5 
days essentially. We were going round the clock. And that would 
not have been possible without the expertise, without the 
resources of the Federal DEMORT team.
    So my limited experience there in terms of the Federal 
response was outstanding. They were there. They came. They had 
all the resources. They were consummate professionals. I spent 
virtually every day going down to the medical examiner's 
offices to see how we were progressing, what issues there might 
be that needed to be dealt with, and they were outstanding from 
that perspective. So a very defined and specific requirement we 
had, but they made it available, as I said, very expeditiously 
and with great professionalism.
    Senator Chafee. That's all I have, Senator.
    Chairman Collins. Thank you. Governor, thanks so much for 
being with us today for leading off this hearing. We look 
forward to working with you. I do want to say again that I am 
impressed with the work that you are doing to get ahead of the 
curve and to make sure that Rhode Island is as prepared as 
possible, whether it's for a natural disaster or an attack or 
any other catastrophe. And I very much appreciate your 
leadership, and we look forward to being your partners on the 
Federal level.
    So thank you so much for coming this morning.
    Governor Carcieri. Thank you very much, Senator. I 
appreciate your support, both senators. The bill that you've 
got in, I think, recognizes the needs that are very different; 
you cannot just have one size fits everybody in this game. I 
want to assure you that from my perspective, you've got a great 
team here working very hard to do all the pieces in a very 
complex issue. Hurricane preparedness is very different than 
terrorist homeland security issues. We have both, and I think 
that we have tried to do, I think, the best job we can. I am 
very positive about the team we have built here, and so I am 
very confident we will be prepared. Thank you.
    Chairman Collins. Thank you. I would now like to call forth 
our second panel of witnesses. This panel consists of five 
local, State, and Federal officials.
    The first witness we are going to hear from on this panel 
is the Mayor of Providence, David Cicilline. He is a graduate 
of Brown University and Georgetown University Law Center. He is 
a former public defender, criminal defense and civil rights 
lawyer. He is also a former State Representative.
    He will be followed by Robert Warren, the Executive 
Director of the Rhode Island Emergency Management Agency. Mr. 
Warren is a career firefighter, last serving as Chief of the 
Cranston Fire Department and the Director of the Cranston 
Emergency Management Agency before joining State government in 
2005.
    Mr. Horak is the Acting Regional Director of Region 1 of 
FEMA. That is New England. I would note that in response to the 
hurricane in the Gulf region last year, I noticed that FEMA 
immediately turned to New England for help. And I think that 
shows that when you are in trouble, you always know New 
Englanders have the ability to handle most anything. Mr. Horak 
joined the agency in 1983 as a disaster assistance employee and 
has held a variety of subsequent positions throughout the 
agency. His national disaster duty assignments have included 
Hurricane Andrew, the North Ridge earthquake, and 1993 Midwest 
floods.
    Major General Robert Bray was appointed as the Adjutant 
General of the Rhode Island National Guard in February of this 
year. General Bray has more than 35 years of military and 
emergency management experience. I would also note that it is 
very unusual for an adjutant general in my experience to have 
first responder experience, and I understand that you were a 
former fire division chief in South Dakota of all places, but 
we are pleased to have you here.
    Chief John Chartier is a 30-year veteran of the City of 
Warwick Fire Department. He presently serves as Chief of the 
department and as its Emergency Management Director.
    I am very pleased to welcome you all here today. I think we 
have exactly the people that we need to assist us in getting a 
good understanding of the interaction among all the levels of 
government that are involved when a disaster strikes.
    Mr. Mayor, we'll start with you.

  TESTIMONY OF THE HON. DAVID N. CICILLINE,\1\ MAYOR, CITY OF 
                    PROVIDENCE, RHODE ISLAND

    Mayor Cicilline. Thank you very much, Madam Chairman, 
Senator Chafee. Welcome to Providence, Madam Chairman, and 
thank you for the opportunity to offer my testimony to this 
distinguished Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Cicilline appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    On behalf of our city, I thank you for the Committee's 
efforts to protect our city, State, and Nation from the threats 
of terrorism and natural disasters. As our focus today 
underscores, recent events have taught us that we do not have 
the luxury of preparing for terrorist attacks at the expense of 
being ready for natural disasters. Both threats are imminent 
and share equal priority. In fact, with a terrorist incident in 
our region, it's a matter of if it will happen. With a natural 
disaster like a major hurricane, it's only a matter of when it 
will happen.
    In Providence, we know exactly what a devastating hurricane 
can do to our city. If you walk straight out of this building, 
I think as you have, about 100 yards to the Amica Building at 
10 Weybosset Street, you can reach up 8 feet to a brass plaque 
that shows how high the water rose during the hurricane in 
1938, unlike the Governor, long before I was born. And several 
inches under that is another plaque showing the waterline from 
Hurricane Carol in 1954. The hurricane of 1938 cost about $300 
million in pre-World War II dollars. Needless to say, if that 
kind of flooding were to happen in Providence again, the costs 
would be enormous.
    Two hundred eighty acres that make up the economic engine 
of the State of Rhode Island and the southern New England 
region would be drowned.
    Hundreds of businesses, thousands of jobs, hundreds of 
residential condominiums and apartments, the region's 
transportation hub, the seat of city government, our Federal 
and State courthouses, State offices, the region's major 
newspaper, dozens of facilities from four universities, our 
city's power, sewer and water systems, all of these would be 
crippled.
    Fortunately, something now stands in the way of a major 
hurricane, and that kind of devastation in Providence, and that 
is our hurricane barrier. As you know, southern New England has 
a wealth of precious assets; but when you consider what it 
protects, our hurricane barrier may be one of the most 
valuable. I am pleased to report that with a tremendous amount 
of support from Senator Chafee, we have invested a great deal 
in recent years to bolster the hurricane barrier. Over the last 
several years, over $2 million has been invested to upgrade 
this facility. Most of that has been made possible through 
Federal funds, but our local Providence taxpayers have also 
shared most of the burden, and the facility is maintained by 
our very own city Department of Public Works.
    We are confident the hurricane barrier can withstand up to 
a Category 4 storm surge, which would be 18 feet above median 
water levels, but there is still more we need to do in order to 
fully bring it up to date according to the experts who have 
done examinations. The major upgrade required is to the 
electrical system, but a variety of smaller fixes should be 
made as well.
    When the hurricane barrier was first constructed, it was 
envisioned as a local protection project, but its vital 
function has clearly outgrown this definition. While we are 
confident in our hurricane barrier, it is only responsible that 
we are prepared for a breach or for some other kind of 
unforeseen natural disaster.
    There are several other areas which our emergency response 
plans need the kind of fortification that can only be provided 
at the Federal level. Some of the FEMA maps that we rely on to 
estimate coastal flooding hazards are over 20 years old, and 
new development has altered watersheds and floodplains.
    We strongly support your honorable colleague Senator Reed's 
National Flood Mapping Act that would require an update of 
these maps. It would also require FEMA maps also be based on 
the best, most up-to-date data.
    We need funding to support the re-engineering of roadways 
used as evacuation routes that better support high volume 
traffic and create extra large breakdown lanes to aid traffic 
flow.
    While we have a plan for emergency shelters in the City of 
Providence, the cost of maintaining them over a number of days 
or weeks is prohibitive for a municipality. We need support to 
cover costs such as the purchase of generators, construction of 
bathrooms and showers, and larger cooking facilities.
    Training is another important need. A plan is only as good 
as its ability to be executed as we have seen time and time 
again and has also been pointed out by our Lieutenant Governor. 
The time and expertise required of good training is a necessary 
investment, but it is also expensive. As with all good 
investments, I believe in the long run it would be cheaper to 
do these things than to not do them.
    Finally, I would be remiss if I did not take the 
opportunity to emphasize how effective the Rhode Island Federal 
delegation has been in making sure our region is as prepared as 
possible. We recently received important support for our 
Emergency Operations Center, our interoperable communications 
capabilities are being upgraded as we speak. And I particularly 
want to thank you again, Senator Chafee, for your focused 
attention for our hurricane barrier. Our region is safer thanks 
to the hard work of you and your staff.
    Madam Chairman, Senator Chafee, I am extremely grateful to 
have the opportunity to submit this testimony to this honorable 
Committee. Thank you.
    Chairman Collins. Thank you, Mr. Mayor. Mr. Warren.

  TESTIMONY OF ROBERT J. WARREN,\1\ EXECUTIVE DIRECTOR, RHODE 
               ISLAND EMERGENCY MANAGEMENT AGENCY

    Mr. Warren. Good morning, Madam Chairman. Good morning, 
Senator Chafee. Thank you for this invitation to speak before 
you this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Warren appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    The Governor has addressed and General Bray will also 
address many of the initiatives that have been and are ongoing 
within the State. As the Executive Director of the Rhode Island 
Emergency Management Agency, I am in contact with local and 
Federal partners that the State interacts with on a daily 
basis. As such, my remarks today will address not only the 
issues that affect Rhode Island, but also those that I feel are 
important to maintain the unique relationship we enjoy with 
those partners.
    Being the Ocean State, all Rhode Islanders recognize the 
value of Narragansett Bay. This resource is one of my biggest 
concerns. The population that now lives or earns a living from 
the bay has increased tremendously in recent years. Yet our 
latest inundation studies of the bay were done in 1993. While 
we are working now to modernize these matters with grants from 
FEMA and other agencies, Congress must give the Army Corps of 
Engineers and the other agencies which perform these studies 
the appropriate level of funding to maintain the effectiveness 
of these programs. Responders and, more importantly, our 
municipal planners cannot accurately predict or prevent damage 
without current and up-to-date data. Funding for these programs 
will help prevent future disasters. Congress must make every 
effort to maintain these programs even though the benefit may 
seem to be years in the future.
    The past 6 months have been the most active that I can 
remember in my public safety emergency management career. The 
lessons learned from Hurricane Katrina have caused us to 
reexamine our assumptions and our priorities. Plans and 
programs in place today would not be successful without our 
Federal and local partners. The amount of planning and program 
requirements flowing down from the Federal level is placing a 
strain on our planning capabilities. As important as planning 
for hurricanes is, none of us can forget that other dangers 
still exist; terrorism, pandemic flu, and our own local hazards 
from industry and such cannot be ignored.
    My agency is now getting planning, exercise, and training 
guidelines and deadlines for program development from many 
Federal agencies, including Homeland Security, FEMA, National 
Guard, Center for Disease Control, and the NRC, with what seems 
like little coordination or recognition of our resources. Most 
of my staff is working on several plans simultaneously with 
conflicting deadlines and schedules. Only two communities in 
the State have full time emergency management staff. Most are 
either part time or do the work as collateral duty such as 
Chief Chartier.
    I ask that you take this back to Washington on behalf of 
RIEMA and that of our partners who are making every effort to 
meet the demands that I place on them to assist us in 
coordinating a plan for these disasters. This issue was also 
raised at the FEMA Regions 1 and 2 conference last week in 
Albany by the State directors of the New England emergency 
management agencies. A recent example would be the DHS regional 
hurricane drill, which was planned for the same time as our 
regional conference with Canada is set up. Now, this did 
eventually get changed on behalf of Cristine McCooms from 
Massachusetts and Director Horak from Region 1, but, again, a 
lot of e-mails, a lot of time spent just trying to make sure we 
can all meet at the time the Federal partners want to meet. So 
that's one of my issues.
    My last remarks do not mean to imply that we do not have a 
high level of cooperation with our Federal partners. FEMA 
Region 1 has been more than helpful during my tenure at RIEMA. 
FEMA had a representative located in our State EOC during the 
entire week we were planning to receive evacuees from New 
Orleans and during the flooding that we experienced in October. 
We are using FEMA staff to help rewrite our resource management 
plan, and our three military emergency preparedness liaison 
officers have been active in the EOC during that plan and 
before the flooding. So I feel we get a high level of 
cooperation between Boston and Rhode Island.
    I truly believe that should Rhode Island face an event the 
magnitude of Hurricane Katrina, our relationship and 
communications with the various Federal agencies will be an 
asset, not a hindrance.
    Another issue that I feel needs to be addressed is the use 
of homeland security funds for multiple disciplines. DHS 
guidelines in the past have told us what the funds can be used 
for in any given year. I think this evaluation needs to be 
expanded to include areas such as natural hazards or other 
hazards. For example, one request I continually receive from 
local government is to use DHS funds for generators for public 
shelters. This has not been allowed in the past. Local 
directors feel that this is the most basic way to protect their 
citizens. These types of expenses need to be allowed by grant 
guidelines. The response to Katrina was the largest involving 
mutual aid in our history, and we need to examine the ways to 
make this response more efficient and easier for the responding 
States and local communities. The Emergency Management Aid 
Compact was used with great success in the last two hurricane 
seasons. EMAC is a State, not a Federal asset. But in all 
practicality, the system is funded through the Stafford Act so 
it goes into effect quickly during these events. I feel that 
Congress should take interest in this valuable aid system. The 
best way at this point would be to make it easier and quicker 
for the payment to the responding communities. It is not my 
intent to lead you to believe the system in place does not work 
or that it is totally a Federal issue. It just seems that the 
paperwork between communities and States and then the Federal 
Government leaves the local response communities or States 
using their own funds for a longer period of time. As we look 
at more national mutual aid in the future, I feel this area 
needs to be examined further and have more innovation.
    One specific request that I do have for you today is some 
direct funding for Rhode Island in building our Emergency 
Management Center. The Governor has placed before the 
legislature a request for $20 million to rehab a State owned 
facility that I will share with E911, DoIT, and RIEMA. If the 
Federal Government could contribute another $6 million 
specifically earmarked for EOC, that would be a great help to 
my staff. What we have planned now, while it may be adequate, 
is not what I think we will need in the future. And I think 
that if the Federal Government continues to hope or insist that 
the locals coordinate with the Federal Government, especially 
in a regional event, some assistance in giving us the proper 
tools would be greatly appreciated.
    Thank you for allowing me to appear before you today.
    Chairman Collins. Thank you, Mr. Warren. Mr. Horak.

  TESTIMONY OF KENNETH L. HORAK,\1\ ACTING REGIONAL DIRECTOR, 
REGION 1, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Horak. Good morning, Madam Chairman, Senator Chafee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horak appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    My name is Kenneth Horak. As stated, I am the Acting 
Regional Director of FEMA Region 1. I will discuss today FEMA's 
role and activities in emergency planning in Rhode Island and 
the specific activities associated with preparing for the 2006 
hurricane season.
    As was noted, hurricanes are no stranger to Rhode Island 
including the hurricane of 1938, Hurricane Carol, which I do 
remember as well as the Governor, I was roughly his age at the 
time, but Hurricane Bob is the most recent example of the 
vulnerability of Rhode Island to hurricanes, and I was involved 
in the Hurricane Bob response.
    The historic 2005 hurricane season challenged FEMA as never 
before. While Hurricane Katrina resulted in a record response 
from all levels of government, the lessons learned from FEMA's 
response have proved invaluable for the improvement of future 
major disaster responses.
    The State of Rhode Island responded in many ways, too, and 
we are particularly grateful to the State for providing housing 
and essential State and community services to over 200 evacuees 
from the devastated Gulf region under a Presidential Emergency 
Declaration. I want to particularly thank Governor Carcieri for 
his leadership in playing a significant role in what was truly 
a national response to Hurricane Katrina.
    Given the geographic relationship of our six New England 
States, FEMA Region 1 sponsors a regional approach to disaster 
plans and response. In that context, FEMA Region 1 conducted 
Operation Yankee, a regional preparedness exercise hosted by 
Rhode Island at the Naval War College in 2003. This 2-day event 
attracted over 200 participants representing emergency 
management, law enforcement, health, medical, volunteer, and 
emergency services from throughout the region.
    We work closely with the Northeast States Emergency 
Consortium (NESEC), a not for profit, all hazard mitigation, 
emergency management mitigation organization consisting of the 
Emergency Management Directors from the FEMA Regions 1 and 2. 
NESEC is the only multi-hazard group consortium of its kind in 
the country. We chair the quarterly Regional Interagency 
Steering Committee (RISC) meetings, attended by Federal 
Emergency Support Function agencies and State emergency 
management representatives. The most recent meeting in March 
focused on lessons learned from Hurricane Katrina. Our 
operations staff meet regularly with the State operations 
officers to coordinate specific plans related to a wide range 
of topics, such as energy, communications, and transportation. 
A FEMA Region 1 technical specialist is currently in Rhode 
Island working to assist the State with their commodity 
distribution plan, at the request of the RIEMA director.
    We conduct monthly conference calls with the State 
Emergency Management Directors and staff. With our State 
Emergency Management Directors, we participate in two annual 
International Emergency Management Group (IEMG) meetings with 
Canada to review Standard Operating Procedures (SOPs) for cross 
border emergency access. We are currently participating in 
national and regional meetings and exercises in advance of the 
hurricane season. Current examples include the FEMA/Army Corps 
of Engineers Senior Leadership Seminar; Emergency Response Team 
National (ERIN) workshops; the Joint Region 1 and 2 
Catastrophic Planning Conference, as Director Warren alluded 
to, with the State Emergency Management Directors from both of 
the regions; meetings with Rhode Island Voluntary Organizations 
Active in Disasters (VOAD); and we will participate with our 
States in a regional tabletop exercise along the east and Gulf 
Coast States planned by the Office of Grants and Training in 
the DHS Preparedness Directorate.
    We work with NOAA, the National Oceanic and Atmospheric 
Administration, particularly the National Service Weather 
Office in Taunton to coordinate hurricane preparedness.
    We anticipate the imminent designation by Secretary 
Chertoff of a Principal Federal Official and a Federal 
Coordinating Officer for our region for this upcoming hurricane 
season. Once those individuals are named, we will hold a 
meeting with our partners in the New England States to review 
the 2006 Hurricane Season Concept of Operations, ensuring 
coordination, unity of command in adherence hearings with the 
principals of the Incident Command System.
    We are planning to present a briefing on our operational 
readiness for the staff of congressional delegation district 
offices. We expect soon that the Defense Coordinating Officer, 
Colonel Francis Kosich, and support staff will be stationed at 
FEMA Region 1 to expediate the position of Department of 
Defense support team. Colonel Ostead has already met with 
regional staff and will play a significant role in the upcoming 
tabletop exercise.
    The Region 1 IT staff coordinates with the New England 
States on issues of communications interoperability with 
emphasis on coordinating the supportive capability of any 
operations situation, including types of equipment frequency 
management.
    We will follow existing protocols in responding to a 
hurricane or any other incident requiring Federal assistance. 
Those protocols include the activation of our Regional Response 
Coordination Center located with our Mobile Emergency Response 
Support detachment in Maynard, Massachusetts, deployment of the 
State Liaison Officer to the State EOC, and, in the case of an 
approaching hurricane, that State Liaison Officer will begin 
pre-landfall coordination with State officials in relaying 
information.
    We will also deploy our Regional Hurricane Team liaison 
member to the National Hurricane Center for on scene 
situational awareness. I should note that the State Liaison 
Officer for FEMA in the State of Rhode Island is a Rhode Island 
resident and served in that capacity for over 21 years. He 
knows the State very well.
    We are currently increasing our workforce for disaster 
readiness. Our staff is currently providing new disaster 
generalist training for approximately 360 recently hired 
Disaster Assistance Employees for New England, New York, and 
New Jersey. Through FEMA's online independent study program, 
Rhode Islanders have taken over 3,000 emergency management 
courses this last year. In addition, two members of RIEMA's 
staff have completed the Hurricane Readiness Training Workshop.
    On the national level, FEMA has created two incident 
response support teams to support the Federal response. When 
first needed, these rapidly deployable teams will provide on 
site support to State, local, and tribal governments on 
technical assistance, situational awareness, communications, 
and assistance in requesting and employing life sustaining 
Federal assets.
    In a network of logistic centers around the country, FEMA 
has obtained and stored commodities, Meals Ready to Eat (MREs), 
ice, water, generators, cots, blankets, and mats. Last month, 
FEMA made arrangements to procure and deliver needed items more 
quickly in the future. We are working on Total Asset Visibility 
to track commodities at all times.
    We are strengthing our emergency medical response. One of 
the Nation's first 10 Disaster Medical Assistance Teams (DMATs) 
is Rhode Island (DMAT 1). This team has responded to many 
incidents, including the Asian flu, influenza outbreak in the 
southeast in 2004, the Station nightclub fire in West Warwick 
in 2003, the World Trade Center attacks in 2001, and the Egypt 
Air crash in 1999.
    FEMA is improving customer service and expediting help to 
disaster victims by doubling registration capacity to 200,000 
persons per day. We will also deploy mobile registration intake 
centers, recognizing that many disaster victims may be stranded 
in shelters with no communications to register for disaster 
assistance. We are expanding our home inspection and 
verification processes to improve the speed and suitability of 
temporary housing operations.
    Finally, as Federal, State, local, and tribal governments 
become better prepared in anticipation of this hurricane 
season, it is vitally important that individuals and families 
also be prepared. New England has not had a significant 
hurricane in many years, potentially resulting in the lack of 
individual preparedness. The States generally hold public 
awareness campaigns at the start of the hurricane season. FEMA 
Region 1 public affairs staff will support the States' efforts 
to promote citizen preparedness through the U.S. Department of 
Homeland Security Ready plan.
    Of course, preparation for improved emergency management 
must be a consistent process. FEMA will continue to make other 
significant enhancements beyond this hurricane season to help 
further strengthen the Nation's preparedness and ability to 
respond and recover from disasters, whatever the cost. We will 
look forward to continuing our partnership with the State of 
Rhode Island, local governments as well as the private sector, 
community organizations, and individuals in identifying their 
roles and responsibilities. Together we will strengthen our 
ability to prepare for, protect against, respond to, and 
recover from catastrophic events.
    Thank you very much.
    Chairman Collins. Thank you. General Bray.

  TESTIMONY OF MAJOR GENERAL ROBERT THOMAS BRAY,\1\ ADJUTANT 
              GENERAL, RHODE ISLAND NATIONAL GUARD

    General Bray. Good morning, Senator Collins and Senator 
Chafee. Thank you for this opportunity to testify this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Bray with attachments appears 
in the Appendix on page 53.
---------------------------------------------------------------------------
    In addition to our Federal responsibilities, the business 
of the Rhode Island National Guard Emergency Management Agency 
is the safety and the security of the citizens of Rhode Island. 
It's a dynamic process that we are engaged in, and I'd like to 
highlight just a few of our accomplishments in that process.
    We are currently working with the vendors to write a 
hurricane response plan which will begin to become an annex to 
the State's emergency operations plan. The plan will use a 
phase time line format. Actions will commence many hours before 
a storm is predicted to make landfall, will continue during a 
storm, and will conclude after the mitigation and restoration 
process. This format will give the Governor and myself ample 
time to make decisions well before the storm is predicted to 
make landfall. Our plan will address issues such as evacuation 
and resource management while the storm is still along the 
southeastern coastline. We feel that these proactive steps will 
reduce the exposure of our residents and guests to the effects 
of this storm and allow for a shorter recovery time.
    As part of the research for this plan, contact was made 
with each of the 39 municipalities in the State to determine 
their potential, particularly during this type of event. We 
have also asked them to research and identify any special 
population groups residing in their community and inform the 
Rhode Island Emergency Management Agency of any requirements 
for evacuation above local resources.
    As part of this planning process, we're working to 
strengthen the State's emergency support function in supportive 
plans which will ensure that the overall hurricane plan for 
Rhode Island will be sufficient in ensuring public safety.
    The first associated plan which is in development is a 
donations management plan. We have hired a contractor using 
Federal funds to ensure we handle this critical function. Our 
plan is to use nongovernment organizations, such as the 
Salvation Army, the Red Cross, and the Rhode Island Food Bank, 
to receive these items. Rhode Island Emergency Management 
Agency has been meeting with these organizations over the past 
month to formalize how this will be accomplished. This part of 
our plan is also going to use volunteer organizations active in 
disasters to also help with this function and manage any 
spontaneous volunteers that may offer to help.
    The last part of this area is activation of a citizen 
program. This Federal program has been inactive in Rhode 
Island. Through the past winter, we developed a template in 
conjunction with the local chapter of the Red Cross to 
formalize and use this group of citizens to help guide us with 
the public concerns regarding homeland security. In this 
regard, our domestic preparedness committee has also created a 
special population subcommittee, consisting of people who 
represent these groups. These citizens give us a better insight 
into the actual issues and concerns specific to citizen space.
    In conjunction with the Department of Environmental 
Management, the Rhode Island Emergency Management Agency has 
worked to rewrite the State's debris management plan. This is a 
daunting task. Projections for a Category 3 hurricane indicate 
a storm of that magnitude could generate as much waste as the 
State normally generates in 3 years. The State's ability to 
clear critical infrastructure and debris and dispose of this 
waste will be critical and will require a full management team 
with the cooperation of several State agencies.
    We have also partnered with FEMA to generate the first ever 
resource management plan for Rhode Island. Using FEMA and the 
Rhode Island Emergency Management Agency staff, we have written 
a plan to distribute food, water, and ice to our population. 
Rhode Island intends to use FEMA's single point ordering system 
so that there is seamless ordering. And thanks to Ken Horak, 
the acting director of FEMA Region 1, for his foresight in 
working with us in this effort.
    The lessons of Hurricane Katrina show the value of good 
intracommunications during an emergency. Rhode Island Emergency 
Management Agency runs a working group consisting of local, 
State, and private groups to complete this process for Rhode 
Island. We are spending large sums of money to ensure that 
Rhode Island has a statewide interoperable radio system. The 
Federal Government must continue to assist us in this endeavor. 
The cost of these systems is simply too much for the local 
communities to bear. We are also working with the local ham 
radio clubs and the amateur radio emergency services to 
establish ham communications between the State's Emergency 
Operations Center, local communities, and Red Cross shelters. 
This backup arrangement will give us tertiary systems. Rhode 
Island Emergency Management has already purchased new antennas 
and emergency power generators to address this concern.
    In an endeavor to enhance our management and mitigation 
capabilities, the State has purchased Web EOC, an electronic 
management program which will increase the capabilities of our 
State Emergency Operations Center. The Emergency Management 
Agency has also purchased a computer for each local emergency 
manager. We have licensed them to operate on this system. After 
the training session scheduled in May, these computers will be 
issued to the local communities. This purchase is part of a 
well thought out plan to increase the flow of information using 
the same format and terminology between agencies. As stated 
earlier, we will adopt a single point ordering system. A local 
director, using Web EOC, will be capable of ordering relief 
supplies such as food, water, and ice from FEMA through the 
State Emergency Operations Center. This system will eliminate 
miscommunication, which in the past has hampered State disaster 
management.
    Finally, the Rhode Island National Guard has been postured 
in a State of readiness since the attacks of September 11, 
2001. In 24 hours, 7 days a week, the Joint Operation Center is 
maintained at the Command Readiness Center in Cranston. The 
Joint Operation Center monitors State, national, military, 
civilian communication pertaining to homeland security, 
national disaster conditions, and military operations. The 
Joint Operation Center is able to communicate interagency, 
multi-jurisdiction, and multi-agency. The Joint Operation 
Center is able to contact the chain of command of the Rhode 
Island State area command 24/7.
    In addition, I would highlight the comments of the Governor 
pertaining to the Stafford Act and our ability to preempt a 
disaster event. It is critical that we are able to be proactive 
in this regard, so I again ask for your support in that 
particular area.
    Once again, I would like to thank you for this opportunity 
to address this august assembly. Rhode Island continues to 
improve its capabilities to ensure public safety in the event 
of any manmade or national disaster. Preparedness is a task 
that we never relax on. Thank you.
    Chairman Collins. Thank you, General. Chief Chartier.

  TESTIMONY OF JOHN E. CHARTIER,\1\ FIRE CHIEF AND EMERGENCY 
       MANAGEMENT DIRECTOR, CITY OF WARWICK, RHODE ISLAND

    Chief Chartier. Good morning, Senators. First of all, I 
would like to thank you for your work in support of all first 
responders involved in both homeland security and emergency 
management and for allowing me the opportunity to meet with you 
this morning. I would like to address a few issues that I 
believe have relevance; in particular, the first responders 
here in Rhody.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chief Chartier appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    As we approach the 2006 hurricane season, we do so with a 
renewed sense of commitment and urgency. I just returned from 
the National Hurricane Conference in Orlando, during which I 
had the opportunity to gain valued information on hurricane 
response and preparedness. The lessons learned from our 
colleagues in Florida and the Gulf States must be learned and 
changes made in order that we can all respond in a coordinated 
manner to effectively serve our citizens. We at the local level 
understand that local and county governments must take the lead 
in emergency response. Local government must be prepared to 
work through our State agencies with FEMA in coordinating the 
Federal Government's role in order that this approach is 
conducted in a team fashion. In order for this to happen, all 
parties must understand the chain of command for all responders 
in response to natural disasters.
    During my training at the National Hurricane Conference, it 
became quite apparent that from region to region around the 
country, this chain of command is not consistent. While most 
agencies have adopted the National Incident Management System 
to conduct operations during emergency management and disaster 
response, the chain of command varies greatly by region. I feel 
that national protocols need to be developed and adopted and 
trained on in order that all regions conduct operations in a 
similar manner. By doing so, it will allow a greater 
understanding between operating agencies as to where they fit 
into the process, particularly when Federal agencies and assets 
are deployed in support of local operations.
    With regard to communications, and this has been mentioned 
by many of my colleagues prior, particularly the Governor, it 
is my understanding that FEMA's National Response Coordination 
Center is upgrading its equipment and installing software to 
improve the interface, coordination, and the exchange of 
information with the Department of Homeland Security Operations 
Center. These improvements in information centers will improve 
coordination, rapid exchange of information, and access to 
field reports to locals before, during, and after a disaster, 
and this is sorely needed. However, while these changes are 
taking place at the Federal level, those of us at the local 
level are still struggling with a dire need for interoperable 
communications. Interoperable communications capabilities must 
be developed at the local level in order that emergency 
response officials can effectively communicate during a 
disaster. This type of communications system is extremely 
costly and for any local municipality to develop it on its own 
is almost beyond our means. I would strongly ask you to support 
the Governor's initiative to support funding for an 
interoperable radio communication system here in Rhode Island. 
As demonstrated during the recent Hurricane Katrina events, 
effective communication is vital. It is completely essential to 
a successful operation in this type of a situation.
    With regard to Emergency Operations Centers, they are 
essential for the effective response of any community to a 
disaster in its ability to staff, operate, and maintain an 
adequate Emergency Operations Center. I would ask Congress to 
support funding designed to allow every region to develop a 
center that meets the needs of the area. In Warwick, my 
hometown, we are presently working on improvements in this 
area, but more Federal support is needed if we are to truly 
build an asset that meets the needs of the region.
    These centers need to be established in a manner that is 
consistent with the chain of command I mentioned earlier.
    I believe that FEMA in conjunction with our State 
counterparts should review present centers to ensure that they 
meet regional needs. While attending last week's conference, it 
became quite apparent to me that the southern States have 
developed these centers to a much greater level of capability 
than we have in the northeast. I'm sure much of the progress 
that they have made down there has unfortunately been driven by 
the frequency of hurricanes in recent years, but we must adopt 
and maintain similar facilities in all areas of the country if 
we are to be truly prepared.
    With regard to shelter and supply at the local level, we 
have been working hard in developing adequate shelters for our 
community. This effort has been successful with the cooperation 
of the Red Cross and our local CERT teams. However, a concern 
to us is the ability to replenish and restock essential 
disaster commodities, such as food, water, and ice during a 
hurricane aftermath. It is extremely important that Congress 
support FEMA's efforts to maintain a ready supply of 
commodities and assets and develop surge capacity that would 
take us beyond the local needs and capacity to handle that.
    With regard to FEMA and Homeland Security, those of us at 
the local level have seen the focus for available funding for 
emergency management and response shift to terrorism and 
weapons of mass destruction since September 11. For example, 
during the last couple of years, we have seen tremendous DHS 
support in terms of our hazardous materials and decontamination 
teams while other areas have received considerably less 
funding. While attention to issues involving terrorism is 
vitally important and necessary, it must be noted that we 
should be giving equal funding support to issues involving 
hurricane and natural disaster preparedness and response as 
well.
    During the course of last week's conference, there was 
considerable discussion regarding the inclusion of FEMA under 
the Department of Homeland Security. I believe that Congress 
should give this issue careful consideration and ensure that if 
FEMA continues to remain part of DHS, that it does not become 
lost within that organization; that its ability to maintain 
focus and complete its mission in response to disasters 
efficiently is assured.
    One last thing with regard to reimbursement. The response 
to Hurricane Katrina involved mutual aid from all parts of the 
country. We here in Rhode Island did our part as well and sent 
numerous folks and teams to that area. The Emergency Management 
Aid Compact allowed for efficient deployment of local and State 
assets with great success. Although these deployments were 
successful in completion of the mission, many of them were 
nightmares for locals like myself who funded these responses 
after assurances from State and Federal agencies that 
reimbursement would be forthcoming only to wait several months 
for compensation. When you are trying to balance a local 
budget, that makes things difficult. If Congress could simply 
streamline the process for reimbursement, it would allow 
greater support of missions in the future.
    In conclusion, the role of local government in hurricane 
response and preparedness must be clearly defined and 
integrated into any State or Federal response. I believe that 
in Rhode Island, we are moving greatly in that direction. 
Particularly during the last 4 years, those of us at the local 
level have seen a tremendous commitment of our State government 
to support the locals not only in terrorism, weapons of mass 
destruction, but emergency management as well.
    I would like to thank you for the opportunity to appear 
here this morning, and I would be happy to answer any questions 
you have.
    Chairman Collins. Thank you so much, Chief, and thank you 
for sharing with us the results of the hurricane conference 
that you just attended.
    Mr. Mayor, I want to start my questions with you. During 
the investigation of Hurricane Katrina, I was struck by, first 
of all, how critical the levees were and that the levees' 
failure greatly exacerbated the disaster; but, second, that 
there was confusion among local, State, and Federal officials 
as to who was responsible for maintaining the levees and 
responding to the breach when the levees began to fail. We 
actually had a hearing on the levees in which we had before us 
representatives of the New Orleans Levee Board, representatives 
of the State of Louisiana's Department of Transportation, and 
representatives of the Army Corps of Engineers. And when I 
asked each of the witnesses who was responsible, each pointed 
to the other.
    Now, here in Providence, I have learned that you have a 
critical hurricane barrier, the Fox Point barrier across the 
Providence River, and that project, which was completed, I 
believe, in the mid 1960s, is critical to protecting Providence 
from extensive flooding.
    In your judgment, is it clear who is responsible for 
routine maintenance of the barrier and who would be responsible 
if the barrier were to fail during a hurricane?
    Mayor Cicilline. Yes. The hurricane barrier is maintained 
by the City of Providence. It is clear to me who's responsible 
for its maintenance. The Senator has been especially helpful in 
attracting Federal resources to do major capital upgrades. And 
one of the real issues is who should be responsible for 
maintaining it. The burden has been principally borne by the 
taxpayers, the local property taxpayers in the City of 
Providence, which is really an unfair distribution of that 
responsibility. That is a barrier that provides protection for 
the downtown region, which is really the economic, educational, 
political center of the State and has enormous economic 
development that has enormous consequences for the State, not 
just the city, and the region.
    So the maintenance is provided by the City of Providence 
and the daily maintenance is done by city employees. The Army 
Corps of Engineers does regular inspection of the hurricane 
barrier and its pumps and its electrical systems. We have been 
very fortunate because we work with our Federal delegation, 
particularly Senator Chafee, to attract Federal resources to do 
some of that work. We need additional resources, but I think a 
larger question really is who is the right agency to ultimately 
have responsibility for that. In the sort of times in which we 
live, with the current configuration of Rhode Island and what 
that barrier protects, I think it is clear that the real 
responsibility ought to be the Federal Government, Army Corps 
of Engineers, who have both the capacity and the expertise and 
who play a critical role already, but have the resources of the 
Federal Government to both maintain and also to respond to a 
breach. If, in fact, there were a breach that required 
additional systems, we have a very strong partnership with our 
State emergency management officials, and we would, I'm 
certain, avail ourselves of that, as well as Federal 
assistance.
    But I think today it does provide an opportunity to think 
about a larger and a more proactive response to that question 
to say, really, does it make sense to have local taxpayers of 
one city support the maintenance and the integrity of that very 
important barrier which protects our whole region.
    Chairman Collins. I think that is an excellent point. It is 
a heavy burden for the taxpayers of one city to bear, given the 
importance of the barrier to the entire State and, as you point 
out, really, the region. But it is good to know that you don't 
have the confusion over basic responsibility that we saw in New 
Orleans because that was a major problem.
    Mr. Warren, I was very pleased to hear Mr. Horak say that 
the Department of Homeland Security is moving to designating in 
advance a principal Federal official and a defense coordinating 
officer who will work together.
    But I want to ask you, because I heard you say that you 
have been, I think, in your position for 10 years, whether 
there have been large scale exercises involving State, local, 
and Federal officials to actually train for a major hurricane 
or other natural disaster?
    Mr. Warren. Yes, there have been. In the past, we have done 
hurricane drills. Actually, 3 years ago, didn't we? The 
hurricane tracts you have before you came up the coast, and it 
was a 2-day exercise that went all through the States. We 
started a few days ahead of time listening to what was going on 
in South Carolina and such and those things. So we have done 
those.
    Obviously, in the last couple of years, we have done a lot 
of training, most of it terrorist based. We have done a lot on 
the airport with our Federal partners. But, again, that does 
benefit us in a natural disaster. So I think the lines of 
communications are tested in those, also.
    Chairman Collins. I think training and exercises are just 
critical.
    I would ask Mr. Horak, do those exercises also involve key 
players from the nonprofit sector, such as the Red Cross, and 
for profit entities, such as power companies, for example?
    Mr. Horak. In the past, the for profits have not been 
involved, but the trend is in the right direction; TOPOFF III 
involved the private sector organizations. We have historically 
had the Red Cross as part of our emergency support functions as 
being first in the Federal Response Plan, and now in the 
National Response Plan. But, yes, there is a trend to involve 
the private sector more and more.
    Chairman Collins. Good. Mr. Horak, you heard the Chief 
explain how difficult it is for a community to not receive 
prompt reimbursement when they answer the call for help under 
the Emergency Management Compact. Can you shed any light on why 
it takes so long to get reimbursement when first responders 
answer the call and go and help as occurred with Hurricane 
Katrina? That's a real disincentive for smaller communities to 
participate if it's going to wreak havoc on their budgets.
    Mr. Horak. Yes. And I personally recognize that, and I've 
seen that situation firsthand, but that is something that our 
headquarter's folks realize they have to improve on. We have to 
improve the financial management processes within FEMA. I think 
that is recognized by Director Paulison. That is a major 
priority for us.
    Chairman Collins. Senator Chafee.
    Senator Chafee. Thank you, Senator Collins.
    Chief Chartier, we were talking to the Governor about the 
lessons from Hurricane Katrina of evacuating disabled nursing 
home patients, and the Governor was saying a lot of that 
responsibility has to go to the local level, and you, yourself, 
said the local level is going to have responsibility for much 
of the disaster.
    In your experience in Warwick, do you have a good database 
of who is disabled in low lying areas and what nursing homes, 
just out of curiosity, in your home community? Are you prepared 
to know who might need help?
    Chief Chartier. Yes, Senator. As part of our local 
emergency operations plan, we have identified all of our, what 
we have considered to be, vulnerable facilities, nursing homes, 
hospitals, and the like, particularly housing for the elderly. 
We have a couple that are built in low lying areas along the 
Pawtuxet River. In addition to that, we use our human resource 
folks in the City of Warwick to help maintain a database of 
folks that might be disabled or just simply not have the means 
to evacuate in a timely fashion, and we hope that by 
maintaining those lists and being aware of what structures we 
need to take care of on a priority basis that we can take care 
of that.
    Senator Chafee. So you can say with some confidence you 
pretty much know who is wheelchair bound in various houses 
throughout the city?
    Chief Chartier. Yes. We try to keep that information as 
current as possible. One of the downsides of any database is it 
is only as good as its recent update. And as people move, if 
they don't forward us their new information, then we have old 
data, but we do make a concerted effort to keep that as up to 
date as possible.
    Senator Chafee. I have a question for the whole panel, I 
don't know who has the best answer, but the whole question of 
interoperability. Is it more a question of cost or developing 
technology? What is the big barrier to this concept and need 
for interoperability?
    Mayor Cicilline. It is clearly cost. We have the 
technology, and we actually are very far ahead in the City of 
Providence from many other communities as a result of Federal 
assistance. We are about 90 percent completed in 
interoperability, but that is unusual.
    The U.S. Conference of Mayors actually recently did an 
analysis, and it is a huge problem across the country. It is 
really because local communities don't have the resources that 
they need to do this successfully to complete this process. 
There's wonderful technology, great systems, but these cost.
    Senator Chafee. Anybody else want to respond?
    General Bray. If I might add to that, as we have stated, 
our 800 Megahertz communications system is a critical link to 
interoperability, but communications is just one dynamic of 
that command and control process, which will be assisted by the 
Web EOC software, and communications is another major part of 
that.
    Redundant systems are essential, and we have done a lot in 
the State of Rhode Island to assure that we have redundant 
systems and capabilities such as, for example, our military 
communications systems that are a part of our organizations 
and, as well, capabilities of the 281st communications 
squadron, which is one of two assets in the entire United 
States that can replicate the backbone of both voice and 
digital communications.
    So we are well postured at this time, but the critical 
issue is the final funding pieces to complete the 800 megahertz 
system.
    Senator Chafee. And I think it was Mr. Horak who mentioned 
in preparation for a hurricane, one of the needs is tarps. And 
as we flew into New Orleans even months after the hurricane, it 
seemed like every roof had a blue tarp over it. So certainly 
small things such as that are important. Once the storm has 
passed and those shingles have blown off, protecting what has 
survived is very important. A good supply of tarps makes a big 
difference.
    Chief Chartier mentioned chain of command, and is there 
anything specific we can do on the Committee to push these 
national standards that you are advocating for?
    Chief Chartier. I think many of the standards are already 
there. I think what needs to be done is more training exercises 
that involve the locals right up through the FEMA level.
    One of the things that I heard from my colleagues sitting 
around at night after the conference was over and talking about 
lessons that they had learned was when the Federal Government 
comes in and interacts, many times folks at the local level are 
not completely clear where the Federal Government fits into the 
process, and those chains of command and the layers of 
responsibility have to be clearly identified and everyone has 
to understand that before the incident happens. Because it gets 
back to what Senator Collins was talking about, who is in 
charge of the levee, who's responsibility it is. Those layers 
of responsibility and clear lines of communication need to be 
laid out in advance and everyone needs to understand them so 
that the chain of command will, in fact, function.
    Senator Chafee. Mayor, is there anything we can do in the 
transfer of responsibility to the Army Corps of the barrier?
    Mayor Cicilline. Yes. That would require congressional 
action, essentially, and you were good enough to come, and I 
thank you for that. I do think it's a question of fairness, 
both in terms of having a small part of a local community bear 
the costs associated and knowing that there is a Federal agency 
that has both the experience and expertise and, I think, even 
the willingness to undertake this responsibility. That would 
require congressional action, and it would be certainly 
welcomed by all the residents of Rhode Island to know both the 
resources will be available of the Army Corps of Engineers as 
well as the professional expertise; to not only maintain it, 
but to deal with the ongoing regular operation, I think, would 
be a huge benefit to all Rhode Islanders and the entire region.
    Senator Chafee. Did I hear you say they are willing?
    Mayor Cicilline. Yes. I think the last time the Army Corps 
of Engineers were here and they floated the idea, and they said 
it is up to Congress. We will take anything they tell us to 
take. So I think they are willing to do it if you direct them 
to do it.
    Chairman Collins. Thank you. General Bray, I want to follow 
up on the interoperability question. You mentioned in your 
testimony that Senator Chafee has been such an advocate for 
additional funding in this area. We have been working to have a 
good formula to the homeland security grant program so that 
States and local governments can have predictability and 
sustainability so that they can undertake a multi-year project 
knowing that the funding is going to be there because that is a 
major problem, as well. A lot of times, these projects are 
going to take several years to complete.
    What would you think if we carved out a certain percentage 
of the homeland security grant money or perhaps created a new 
program that was specifically for interoperable equipment?
    The reason I ask this question is this comes up over and 
over again, as the Mayor has mentioned, and we just don't seem 
to be making fast enough progress. The same problems during 
Hurricane Katrina happened and 4\1/2\ years before with 
September 11. What about our, I hate to use the word in this 
environment, ``earmarking,'' but earmarked specific funding 
that would be a competitive grant program, perhaps, just for 
interoperable equipment? What would you think of that?
    General Bray. Thank you for asking the question, and let me 
express my appreciation for your support in this area.
    You are exactly right. I think a cradle to grave mentality 
needs to be adopted, particularly for these type of absolutely 
essential programs. To start a project such as this that is so 
critical to our overall capabilities, to mitigate an incident 
like this, not to mention just day-to-day handling of 
emergencies within a State, I think, is absolutely essential 
that we are able to see the end state to fruition in a 
reasonable amount of time.
    Our capabilities in the State through this communication 
system will be absolutely solidified. We are in position to 
build the backbone that will support this. What is essential is 
to ensure that the local responders have the resources then to 
tie into that system. So any methodology that would help us get 
there and, as you say, with some predictable, some assurance 
that we will see that end state is absolutely essential.
    Chairman Collins. Chief, from your perspective, is the lack 
of predictability of funding and the fact that the formula is 
changed every single year a problem when you are trying to 
embark upon a major project like interoperability?
    Chief Chartier. Yes, for several reasons. One, for a local 
community to start down the road, from my community alone, we 
would be looking at a $3.5 to $4 million project, and we are a 
city of about 100,000. To embark down that road not being 
completely sure that the funding would maintain all the way 
through the project to having a complete system at the end is 
just not a road that most locals are willing to go down 
because, for one reason, if you've only got half of your city 
on the system, then you've, in effect, created a worse 
nightmare because where at least before you could talk to your 
own folks, maybe not outside, if you start installing assets to 
infrastructure that only covers half of your city while you are 
hoping that the rest of the funding shows up next year, you 
have just muddied the waters further.
    So, as the General was saying, if you have cradle to grave 
where we know that if they start it this year, it's going to be 
a 5-year project; this is the timeline, these are the 
increments in which the funding is going to be available, that 
would be much simpler.
    Chairman Collins. Thank you. Senator Chafee.
    Senator Chafee. I think I have gotten all the answers. We 
will keep working. Senator Collins is urging exercise and 
practice, and that is important, also.
    And, Mayor Cicilline, we were in one of your fine dining 
establishments last night, Senator Collins and I, and ran into 
a waiter who was a fellow northern Mainer.
    Mayor Cicilline. We arranged that.
    Chairman Collins. Well done.
    Senator Chafee. And I know Senator Collins is on her way to 
Arkansas to chair another hearing.
    Chairman Collins. Let me just ask one final question for 
you, Mr. Horak. It is my understanding that a FEMA survey that 
was conducted in May 2000 found that 77 percent of homeowners 
in the northeast had not prepared a disaster supply kit, had 
not prepared a hurricane evacuation plan, really had no idea of 
what they should do if disaster strikes. Now, I think that 
citizen awareness has been boosted enormously by Hurricane 
Katrina, but is FEMA undertaking any effort with its State and 
local partners with the people who are right beside you to 
educate the public on evacuation routes, on what a supply kit 
should include, on what they should do during the first 24 
hours when they are very likely to be on their own?
    Mr. Horak. As I said in my opening remarks, that is one of 
our priorities. It is a personal view of mine that the local 
citizens and families are not as prepared as they should be. I 
alluded to campaigns tied to the hurricane season, public 
awareness campaigns. We will be doing one of those with our 
States. We are also working with the National Weather Service 
in Taunton who will also be putting on a campaign. That should 
be a sustained program; not just hurricanes, but all hazards.
    There are two sources of readiness information, there's a 
FEMA web site with a lot of information, www.fema.gov, but also 
www.ready.gov, which the DHS sponsors, lots of valuable 
information there as well. We will continue to publicize that. 
But I emphasize, it is important for States and local 
governments to be involved in that coordinated sustained 
campaign.
    Chairman Collins. Any other members of the panel want to 
comment on that issue, on any efforts you have underway to try 
to educate the citizens? Mr. Mayor.
    Mayor Cicilline. We have done a lot in the area, Senator. 
We have done a fair amount of training of volunteers in 
connection with shelter volunteers in the shelter system. We 
have shared information about evacuation routes with residents 
in the city. We also did a campaign called Ready Providence in 
which we distributed emergency kits and lots of information on 
evacuation routes and natural disasters to residents of 
Providence. Our director of Homeland Security and Emergency 
Preparedness has really emphasized the importance of educating 
the residents of Providence on how to respond to a natural 
disaster, what we need to have, and has actually provided some 
materials.
    Chairman Collins. That's great. Anyone else?
    Mr. Warren. We have established a committee that is working 
to especially educate the people on the web site to make sure 
they understand, and then also, if people can't get to it, to 
make sure we get those materials to them.
    Chairman Collins. That's good. Thank you all. I think that 
citizen awareness that we ended on is often neglected. So I am 
very pleased to hear that you are proactive in that area.
    Every year, the ranking Democrat on my Committee, Senator 
Lieberman and I--I think it is September that is National 
Preparedness Month--always do a press event, and no one ever 
pays any attention. And, as a result, I think that most 
families are not prepared. But as I said, I think we have an 
opportunity that has been provided to us by last year's 
catastrophe to catch the attention of the public, to educate 
our citizens, and to make sure that they understand that they 
are part of the solution; that individual citizen and family 
preparedness is also necessary to supplement what sounds like 
terrific efforts that this entire State has embarked upon.
    So I want to thank you all for your hard work, your 
dedication, and, most of all, for your service by coming here 
today. It's been very helpful. It has given us insights on what 
a small but vulnerable State has undertaken. You have a true 
champion in Senator Chafee. He's been a real leader on this 
issue and has a special understanding of the challenges faced 
by coastal areas. So I look forward to continuing to work with 
Senator Chafee and all of you. Thank you for your 
participation.
    The hearing record will remain open for 15 days for the 
submission of any additional materials. This hearing is now 
adjourned.
    [Whereupon, at 12:16 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 28239.001

[GRAPHIC] [TIFF OMITTED] 28239.002

[GRAPHIC] [TIFF OMITTED] 28239.003

[GRAPHIC] [TIFF OMITTED] 28239.004

[GRAPHIC] [TIFF OMITTED] 28239.005

[GRAPHIC] [TIFF OMITTED] 28239.006

[GRAPHIC] [TIFF OMITTED] 28239.007

[GRAPHIC] [TIFF OMITTED] 28239.008

[GRAPHIC] [TIFF OMITTED] 28239.009

[GRAPHIC] [TIFF OMITTED] 28239.010

[GRAPHIC] [TIFF OMITTED] 28239.011

[GRAPHIC] [TIFF OMITTED] 28239.012

[GRAPHIC] [TIFF OMITTED] 28239.013

[GRAPHIC] [TIFF OMITTED] 28239.014

[GRAPHIC] [TIFF OMITTED] 28239.015

[GRAPHIC] [TIFF OMITTED] 28239.016

[GRAPHIC] [TIFF OMITTED] 28239.017

[GRAPHIC] [TIFF OMITTED] 28239.018

[GRAPHIC] [TIFF OMITTED] 28239.019

[GRAPHIC] [TIFF OMITTED] 28239.020

[GRAPHIC] [TIFF OMITTED] 28239.021

[GRAPHIC] [TIFF OMITTED] 28239.022

[GRAPHIC] [TIFF OMITTED] 28239.023

[GRAPHIC] [TIFF OMITTED] 28239.024

[GRAPHIC] [TIFF OMITTED] 28239.025

[GRAPHIC] [TIFF OMITTED] 28239.026

[GRAPHIC] [TIFF OMITTED] 28239.027

[GRAPHIC] [TIFF OMITTED] 28239.028

[GRAPHIC] [TIFF OMITTED] 28239.029

[GRAPHIC] [TIFF OMITTED] 28239.030

[GRAPHIC] [TIFF OMITTED] 28239.031

[GRAPHIC] [TIFF OMITTED] 28239.032

[GRAPHIC] [TIFF OMITTED] 28239.033

[GRAPHIC] [TIFF OMITTED] 28239.034

[GRAPHIC] [TIFF OMITTED] 28239.035

[GRAPHIC] [TIFF OMITTED] 28239.036

[GRAPHIC] [TIFF OMITTED] 28239.037

[GRAPHIC] [TIFF OMITTED] 28239.038

[GRAPHIC] [TIFF OMITTED] 28239.039

[GRAPHIC] [TIFF OMITTED] 28239.040

[GRAPHIC] [TIFF OMITTED] 28239.041

[GRAPHIC] [TIFF OMITTED] 28239.042

[GRAPHIC] [TIFF OMITTED] 28239.043

[GRAPHIC] [TIFF OMITTED] 28239.044

[GRAPHIC] [TIFF OMITTED] 28239.045

[GRAPHIC] [TIFF OMITTED] 28239.046

[GRAPHIC] [TIFF OMITTED] 28239.047

[GRAPHIC] [TIFF OMITTED] 28239.048

[GRAPHIC] [TIFF OMITTED] 28239.049

[GRAPHIC] [TIFF OMITTED] 28239.050

[GRAPHIC] [TIFF OMITTED] 28239.051

[GRAPHIC] [TIFF OMITTED] 28239.052

[GRAPHIC] [TIFF OMITTED] 28239.053

[GRAPHIC] [TIFF OMITTED] 28239.054

[GRAPHIC] [TIFF OMITTED] 28239.055

[GRAPHIC] [TIFF OMITTED] 28239.056

[GRAPHIC] [TIFF OMITTED] 28239.057

[GRAPHIC] [TIFF OMITTED] 28239.058

[GRAPHIC] [TIFF OMITTED] 28239.059

                                 <all>

</pre></body></html>
